                                      NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS


                             CLOSEOUT MEMORANDUM


Case Number: A07060030                                                       Page 1of 1



    We randomly selected a CAREER proposal for a proactive review of proposals for
    plagiarism.1 An initial search found extensive copied text. The source with the
    most text copied from i t was a n earlier publication with the PI a s one of the co-  .
    authors,2 so it was not included a s a possible source of plagiarism. The paper3 with
    the next most copied text contained a few lines of text with only 2 complete
    sentences. Although this paper is referenced in the proposal, the citation is not
    near the copied text. Very small amounts of additional text with no complete
    sentences were copied from a couple other papers.
    Given the small amount of copied text, we concluded this copying is not a significant
    departure from accepted standards, even if copied intentionally. We sent the PI a
    letter cautioning him to distinguish non-original text. Accordingly, this case is
    closed.




        1 Described on page 34 of our March 2006 Semiannual Report
    (http ~//~~~.nsf.~ov/~ubs/2006/oi~march2006/oi~march2006.~df).
        2 (footnote redacted).
        3 (footnote redacted).




                                                                                              '11
    NSF OIG Form 2 (11/02)
